To hold that a non-engineer should somehow intuit that the government has
planted a type of vegetation that will armor the opposite bank is a gross
mischaracterization of the protections that were set in place by this Court in Dickinson,
and in the later cases of Banks and Boling.

CONCLUSION

For the foregoing reasons, Petitioner respectfully requests that the Petition for Writ
of Certiorari be granted. The "situation" either has not yet become "stabilized" or did not
until 2012 — either way, rendering this lawsuit timely.

As the Boling court noted, the Dickinson opinion stands for the proposition that

 

"accrual principles should not be rigidly applied in cases involving environmental
takings," due to the difficulties facing property owners when the government leaves "the
taking to physical events" and puts the onus on the owners to determine the decisive
moment in the process to bring suit. 220 F.3d at 1372 (citing Dickinson, 331 U.S. at 748). |
Indeed, in Boling the Federal Circuit criticized the lower court for holding that "the claim
stabilizes once any small portion of land has been taken," noting that such a holding is
inconsistent with Dickinson. Id.
The instant case is on all fours with Dickinson and its progeny, Petitioner
demonstrated that she filed her complaint within the statute of limitations. Petitioner
respectfully requests that this Court reverse the lower courts! decisions and remand for

trial.

  

IANNE DUGAN, Attorney at Law
Counsel of Record
1430 Willamette St. # 359

14
